            U.S. Department of
                                                        Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   INFORMATION: Audit Announcement --                  Date:       November 18, 2010
           Review of Improper Payment Reporting
           Under Executive Order 13520
           Project Number: 11F3001F000

  From:                                                        Reply to    JA-20
                                                               Attn. of:
           Earl C. Hedges
           Acting Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           On November 20, 2009, the President signed Executive Order (EO) 13520,
           Reducing Improper Payments. The EO incorporates new reporting requirements
           for agencies and new oversight requirements for Inspectors General for programs
           with the highest occurrence of improper payments. OMB identified the Federal
           Highway Administration (FHWA) Federal-Aid Highway Program, with an
           estimated $1.4 billion in improper payments, or 3.5 percent of total payments, as a
           high priority program.

           As required by EO 13520, we plan to initiate a review of the Department of
           Transportation Fiscal Year 2009 High Dollar Improper Payments report. Our
           objectives will be to determine: (1) whether the improper payment amounts
           presented were accurate; and (2) whether the agency complied with requirements
           for high priority programs.

           We plan to begin this audit immediately and will conduct it at DOT Headquarters
           in Washington DC. We will contact your audit liaison to establish an entrance
           conference and discuss this audit.

           Should you have any questions or if I can be of further assistance, please contact
           me at (410) 962-1729, or Mark Rielly, Project Manager at (410) 962-0699.
                               #

cc: Martin Gertel, M-1
    Cynthia Thorton, HAIM-13
